SUPREME COURT OF UNITED STATES
C3

Case No. # fe*

§0 2 2
-n r

PETITIONER :

MICHAEL C. SULLIVAN

p~
:

Vs

RESPONDENTS : UNITED STATES FOREST SERVICE, et al­
and TWELVE (12) USFS AGENTS

FILED
SEP 04 2021

ON PETITION FOR WRIT OF CERTIORARI TO : __SUPREME^cn! hs
United States 6th Circuit of Appeals Case No : 20-5666 of:
Eastern District of Tennessee Case No : 2:19-CV-00049

Plaintiff / Appellant / Petitioner : Michael C. Sullivan
Angel Hill Farm
146 Rosedale Rd.
Stumptown, WV 25267
Phone: (304) 354-7529

PETITION for WRIT of CERTIORARI

n, n

I

JUDICIARY QUESTIONS PRESENTED
Pursuant to Good Faith in Law

WHETHER: The Fifth (5th) Amendment of the United States requires the United States
government and its agencies to pay just compensation for wrong doings.
WHETHER: Federal Rules of Civil Procedure (FRCP), can properly be applied to address a US
Forest Service SF-95 civil action claim of evident facial and factual merit matters to remedy relief.
WHETHER : United States Judicial Canon Code 3 (C)(1)(e) disqualifies a federal judge, who has
already stated a judicial opinion, in regards to the same subject matter controversy civil action.
WHETHER: A Judicial Canon Code 3 (C)(1)(e) disqualified federal judge can conclusory, without
merits dismiss with "bad faith prejudice", a remanded de novo civil action of evident facial and
factual merit matters, prior to defendants issuance service and proper answer to complaint.
WHETHER: The United States judicial system can properly address rogue government law
enforcement causation organized crime racketeering violations of codes of conduct, rules,
regulations and standards, that government employees vowed to protect and secure, within their
code of duty and our United States of America sacred constitutional amendment rights.

2

Respondents Named in Petition
Twelve (12) U.S. Forest Service Agents
Nature of Claims : see...Eastem Tn 2:19-cv-00049 (Doc 2, pgs 32-60)
US Offiice of General Counsel
OGC Dir. Karen Carrington
1400 Independence Ave. SW
Room 3311 South Building
20250-1415
Washington, DC
Phone; (865) 545-4167

David Ferrell
c/o Dir. Tracy Perry
US Forest Service LEI
201 14th Street SW
Washington, DC 20250-1415
Phone: (703) 605-4690

United States Forest Service
Deputy Dir. Christopher Boehm
Law Enforcement Headquarters
201 14th Street SW
Washington, DC 20250-1415
Phone; (703) 605-4690

Joseph L. Parham
US Forest Service
1200 Hwy 184 East
Meadville, MS
39653
Phone: (601) 384-5876
Phone: (601) 384-2814

Elizabeth Anne Marchak
c/o FOIA Dir. Sarah Sullivan
US Forest Service FOIA
1400 Independence Ave. SW
Mail Stop #1143
Washington, DC
20250-1143
Phone: (202) 205-1542

Stephen Ruppert
US Forest Service
1720 Peachtree Rd. NW
Atlanta, Ga.
30309
Phone: (404) 357-4128
Phone: (404) 347-4243
c/o Law Enforcement Unit

Joan M Rizkallah
US Forest Service
50 HWY 145 South
Harrisburg, IL 62946
Phone: (618) 253-7114

Robert S. O'Neill
US Forest Service
761 South Laural Rd.
London, Kentucky 40744
Phone: (606) 521-8900

Javier Valles
US Forest Service
4 Lost Lodge Road
Cloud Croft, NM 88317
Phone: (505) 850-3618

Lucas A. Johnson
US Forest Sevice
13700 U.S. Hwy 33
Nelsonville, Ohio 45764
Phone : (740 ) 753-0101

Ira Smith
Bureau of Land Management
95 East 500 North
Fillmore, UT
84631
Phone : (435) 743-3100

Anderson E. Harris
US Forest Service
521 N. Main Street
Jonesboro, IL 62966
Phone: (618) 833-8576
3

i

TABLE OF CONTENTS
Table of Contents.

i

Table of Authorities.

n

Table of Exhibits.

Ill

TABLE OF CONTENTS : I
Judicial Opinions.......

8-10

Jurisdiction Statement.

10-13

Constitutional and Statutory Provisions

13-17

Petition Statement of Evident Merits....

17-21

Reasons for Granting the Writ.

21-23

Conclusion Statement.............

23-34
35

Certificate of Service.

36-76

Index Appendices : Appendix A to D

TABLE OF AUTHORITIES : II
Federal Cases:
Aguilar v. Texas, 378 U.S. 108 (1964) : "Creditable reliable probable cause information".... 17,27
Anderson v. Creighton, 483 U.S. 635 (1987) : "False testimony is 1401* reasonable"

17

Ashcroft v. Iqbal 556 US 662 (2009) : "Case cannot be dismissed on conclusory merits"....... 17,22
Bivens v. Six Agents, 403 US 388 (1971) : "For every wrong, there is remedy"..... 10,13,14,15,17
Harlow v. Fitzgerald, 457 US 800 (1982) : "No immunity for negligent code of duty"

17

Hartman v. Moore 547 U.S. 250 ( 2006) : "Causation probable cause".......................

17,27,28

Johnson v. USA 333US 10 (1948) : "Impartial detached magistrate, judges probable cause"..... 17
Kalina v. Fletcher 522 US 118 (1997) : "Qualified duty, to do something successful"

17

Kowak v. USFS, 9th Circuit, No. 12-35864 (2014) : "OGC FOIA withheld evidence"......... 17,20
4

Malleyv. Briggs 475 US 355 (1986) : "Incompetent have'NO'qualified immunity".

17

RICO 18 USC §1962 §1964 (1970) : "Gov. enterpise coercion obstruction ofjustice"

13-17

Spinelli v. United States (393 U.S. 410) : "Proper probable cause circumstances".....

17,19,27

Westfall 484 US 292 : "Proper conduct, duty and discretion shielding immunity"....

13,14,15,17

Lee v. Philadelphia, tort, 05-cv-6661 (2005) : "Awarded $180,000, for bogus drug tests"

17

Home v. USDA 576 US 350,135 S. Ct. 2419 (2015) : "5th Amend, just compensation"... 17,31,34
♦Chief Justice John Roberts affirmed in the OGC case of "Home v. USDA", that the Fifth ( 5th )
Amendment requires the government and its agencies to pay just compensation for wrong doings.

Tn, State and Federal Cases :
17,19,22,27

Aguilar v. Texas 378 US 108 (1964) : "Creditable probable cause information"

Limbaughv. Coffee Med Center (2001) : "Tn statutory standard of qualified immunity"

11,23

Spinelli v. United States (393 US 410) : "Proper probable cause circumstances relied on".. 17,22,27
Steele v. Primehealth, P.C. (2015) : "Tn standard statutory law of summary judgement"

11,23

Sullivan v. Safariland, LLC et al., Tn. 2:13-CV-174 (2015)....

19

Sullivan v. Sullivan County, et al., Tn. 2:13-CV-173 (2015)...

26

Sullivan v. US Forest Service, et al, Tn. 2:16-CV-273 (2018)

8,10,11,17,19,20,21,33

Sullivan v. US Forest Service, et al, Tn. 2:19-CV-049 (2021).. 8,9,11,12,17,21,22,24,25,26,28,30,31
6th Circuit of Appeals # 18-5558 (2019).

8,11,17,18,19,21,24,30,32,33

6th Circuit of Appeals # 20-5666 (2021),

..........9,11,12,17,21,22,30,31

Federal Statutes :
CFRUSTitle5 : Executive 11222 : "Code of duty for USFS employees"

14,15,20

CVB Standards : "Central Violations Bureau regulations for traffic citation"

14,15,20

DOJ N1J Standards 0604.01 : "Proper standard for drug field test kits"..............

14,15,18,20

FOIA : 5 USC§552 (b)(6),(7)(c) : "FOIA request, subpoena for incident video"

15,16,20,23,33

5

22

FRAP : Rule 27 (a)(2)(A) : "Motion with legal grounds for relief sought".............
FRCP : Rule 4 (a)(c)(e)(i)(l)(m): "Proper service of complaint and summons"......

22,31,33

FRCP 28 : USC § 1915 (e)(2): "Forma Pauperis proceedings".............................. 21,24,30,31,33
FRCP 37 : 28 USC § 2412 : "Failure to make disclosures, sanctions, cost & fees"..

33

FRCP : Rule 12(b)(l-6) : "Proper motion to dismiss"...........................................

5,22

FRCP : Rule 13(g) : "Amended tort, same occurrence subject matter"..................

13,23

FRCP : Rule 56 (a)(c)( 1-2) : "Summary Judgement factual admissible evidence"..,

22

FTCA : Federal Tort Claims Act 28 U.S. Code Part IV : "Jurisdiction and Venue"

10

FTCA : 28 USC § 1295 : "Proper jurisdiction of circuit court of appeals".........

10

FTCA : 28 USC § 1331, 1343 : "Tort claims original district court jurisdiction"

10

FTCA : 28 USC § 1346 : "United States, being named tort claim defendant".....

10,13,14

FTCA 28 USC § 2675 : "SF-95 amended updated administration claim"..........

10,13,14

Judicial Canon Code 3 (C)(1)(e): "Judicial disqualification, previous stated opinion".... 18,22,23,24
21

Title 21 USC 841 : "Federal fines and punishment for felony drug violations"

Tn. State Statutes :
Aquilar-Spinelli: Proper Tn probable cause statute, at time of incident and adjoining cases
If police cannot establish both prongs of test, a judge dismisses case for lack of probable cause.
Aguilar v. Texas, 378 U.S. 108(1964) : "Creditable probable cause information"........

17,19,22

Spinelli v. USA (393 U.S. 410) : "Proper probable cause circumstances relied on"......

17,19,22

Tn Code Ann §20-16-101 : "Proper evident proof in summary judgment motions".......

23

Tn Code Ann §28-3-104,105 : "SF-95 Tn statute of limitation, lyr injury, 3yr property"

11,23

Tn Code Ann §28-1-114 : "Proper tort co-party cross-claim complaint".......................

11,23

Tn Code Ann §29-20-201 thru 206,: "Tn statute waivers of qualified immunity".........

11,15,23

Tn Constitution Article 1 Section 7 : "Tn statute of probable cause determination"........

22

Tn vs Tuttle 'Totality of Circumstances': "Tn probable cause adopted 2017 after 2012 Incident".. 28
6

TABLE OF EXHIBITS : III
TN CASE # 2:16-cv-273 ^EXHIBITS Al-All:
A1 : Amended FTCA 28 USC, SF-95 claim filed June 24, 2013 : ( Tn Doc 9, pgs. 154-164 )
A2 : Amended FTCA 28 USC, SF-95 administration updates : ( Tn Doc 9, pg. 165-169)
A3 : OGC Mar.17, 2016 response to amended June 24, 2013 SF-95 : ( Tn Doc 9, pg. 170 )
A4 : Appellant plaintiff brief resume with photo : (Tn Doc 9, pgs. 171-175 )
A5 : Federal USC Title 1, 841 : Felony punishment statute : ( Tn Doc 9, pg. 175 )
A6 : Proof of FRCP 4, USPS priorty certified signed service : ( Tn Doc 19, pgs. 239-275 )
A7 : DVD 6th cir. ex. 1-19 : Incident video & oath testimony *14a-c : ( Tn Doc 25, pg. 372 )
A8 : USFS Legal Dept, and OGC correspondence : ( Tn Doc 25, pgs. 373-383 )
A9 : USFS FOIA appeal and subpoena requests with responses : ( Tn Doc 25, pgs. 384-393 )
A10 : Adjoining Tn. case 2:13-cv-173, settlement agreement: ( Tn Doc 25, pgs. 394-396 )
All : Proper signed amended, updated denied SF-95 tort claim : ( Tn Doc 37, pgs. 471-475 )

TABLE OF EXHIBITS : III
Included in this Supreme Court Petition for Writ of Certiorari of:
United States 6th Circuit Court of Appeal case no. 20-5666 are ;
All electronic filings of 6th Circuit Court originating appeal remanded case no. 18-5558 ;
All electronic filings of originating Tn. Eastern District civil action, case no. 2:19-cv-00049 ;
All electronic filings of adjoining Tn. cases no.: 2:16-cv-273 ; 2:13-cv-173 ; 2:13-cv-174

7

JUDICIAL OPINIONS

*On March 19,2018 : District Judge Greer, Magistrate "Corker", Tn 2:16-cv-00273, doc 33 : This
case came before the Court on a motion to dismiss filed by Defendants. The Honorable J. Ronnie
Greer, United States District Judge, having rendered a decision on the motion, it is ORDERED and
ADJUDGED that the plaintifftake nothing and that the plaintiff’s action be DISMISSED WITH
PREJUDICE.
*On June 11,2018 : District Judge "Corker", Tn 2:16-cv-00273, doc 40, Order : This matter
comes before the undersignedpursuant to 28 U.S.C.§ 636(b) and standing orders ofthe District
Courtfor consideration ofPlaintiffs Application To Proceed In Forma Pauperis [Doc. 38] to
appeal this case to the Sixth Circuit Court ofAppeals as providedfor in Fed.R.App.P. 24(a). The
motion [Doc. 38] is GRANTED. The undersigned has reviewed the application andfinds Plaintiff
lacks the ability to pay or to give securityfor fees and costs. Interpreting his application liberally,
the Court believes Plaintiffis alleging that he is entitled to redress 'for wrongful arrest of [sic]
assorted damages. ” [Doc. 38, pg. I]. While this is not specific, the Court will interpret this as
compliance with Fed.R.Crim.P. 24(a)(l)(A)-(C) ’s requirements. Accordingly, the Court GRANTS
the Plaintiff’s motion to proceed in forma pauperis and Plaintiff is permitted to proceed on appeal
without prepaying or giving securityforfees and costs.
*On Jan. 03,2019 : Judges Guy, Stranch, "Larsen", 6th Circuit Appeal 18-5558, doc 11, Order :
Accordingly, we VACATE the district court’s judgment in part and REMAND the action so that the
district court may correct its judgment to indicate that the individual defendants are dismissed
without prejudice to the extent that they were sued in their individual capacities. The district court’s
judgment is AFFIRMED in all other respects, and all pending motions are DENIED.
*On June 12,2020 : District Judge "Corker", Tn 2:19-cv-00049, doc 10, Order: This case came
before the Court on Plaintiff’s Motion for Leave to Proceed informa pauperis [Doc. 1] and
Magistrate Judge Cynthia R. Wyrick’s Report and Recommendation [Doc. 6]. For the reasons
stated in the Court’s Order adopting Judge Wyrick ’s Report and Recommendation, it is ORDERED
AND ADJUGED that this action be, and hereby is, DISMISSED WITH PREJUDICE. Accordingly,
the Clerk is DIRECTED to close the case. The Court certifies that any appealfrom this action
would not be taken in goodfaith and would be totallyfrivolous. See Fed. R. App. P. 24(a)(3)(A).
**Judge Corker is Canon Code 3(C)(1)(e) disqualified to address same subject matter remanded de novo
appeal twice. Assigned Magistrate Corker had already stated his dismiss with prejudice opinion in
originating same subject matter case Tn 2:16-cv-00273.

8

*On Feb. 02,2021: Judge Murphy, 6th Circuit Appeal 20-5666, doc 7, Order: For the reasons
expressed by the district court and magistrate judge, an appeal in this case would be frivolous—
i.e., it would lack an arguable basis in law. See Neitzke v. Williams, 490 U.S.319, 325 (1989);
Callihan v. Schneider, 178 F.3d 800, 804 (6th Cir. 1999). Accordingly, the motion to proceed in
forma pauperis is DENIED. Unless Sullivan pays the $505 filingfee to the district court within
thirty days ofthe entry ofthis order, this appeal will be dismissedfor want ofprosecution.
*On April 21,2021: Judges Kethledge, Donald, "Larsen", 6th Circuit Appeal 20-5666, doc 12,
Motion for Reconsideration : In his motion for reconsideration, Sullivan argues that an appeal
would be taken in goodfaith because this Court partially vacated the dismissal ofhis prior
complaint and remanded the case to the district court. He also argues that the district court
judge and the magistrate judge exhibited bias when they summarily dismissed his current claims,
and that they should thus be disqualified. We conclude that the Court did not act under any
misapprehension oflaw orfact in its prior order denying Sullivan ’s motion to proceed in forma
pauperis. See Fed. R. App. P. 40(a). Accordingly, we DENY the motion for reconsideration.
**Judge Larsen is Canon Code 3(C)(1)(e), disqualified to address this same subject matter remanded de
novo appeal case. Judge Larsen had already stated her opinion in originating same subject matter 6th
circuit appeal 18-5558.
*On May 11,2021: Judge Murphy, 6th Circuit Appeal 20-5666, doc 15, Order :
The plaintiff moves to hold this case in abeyance pending rulings on his two judicial
complaints. Both the district court and this court denied the plaintiffpauper status on appeal
and the appellate filingfee remains outstanding. The motion to hold this appeal in abeyance
is DENIED. In view of this ruling, the plaintiffis afforded one final opportunity to pay the
$505 appellate filingfee to the district court no later than Tuesday, May 25, 2021. Further, the
plaintiffis cautioned thatfailure to comply with this deadline may be grounds for dismissalfor
want ofprosecution withoutjurther notice.
*On June 08,2021: Judge Murphy, 6th Circuit Appeal 20-5666, doc 17, Order:
Appellant having previously been advised thatfailure to satisfy certain specified obligations
would result in dismissal ofthe case for want ofprosecution and it appearing that the appellant
hasfailed to satisfy thefollowing obligation(s): The properfee was not paid by May 25, 2021. It
is therefore ORDERED that this cause be, and it hereby is, dismissedfor want ofprosecution.
*On Aug. 06,2021: District Judge "Corker", Tn 2:19-cv-00049, doc 20, Order :
PlaintiffMichael Sullivan ("Plaintiff”) filed a Notice ofAppeal [Doc. 11] following the Court’s
order andjudgment dismissing this case with prejudice [Docs. 9, 10]. On February 2, 2021,
the United States Court ofAppealsfor the Sixth Circuit denied Plaintiffs motion to proceed in
forma pauperis [Doc. 13] and directed Plaintiff to pay the $505 filingfee within thirty days.
Plaintiffdid not timely pay the filingfee, and on June 8, 2021 the Sixth Circuit dismissed the
case for want ofprosecution [Doc. 19]. In light ofthe dismissal on appeal, Plaintiffs pending
9

motion for substitution [Doc. 14] and motion to stay proceedings andfor extension oftime
[Doc. 17] are DENIED as moot. **Judge Corker is Canon Code 3(C)(1)(e) disqualified to address
same subject matter remanded de novo appeal twice. Assigned Magistrate Corker had already stated his
dismiss with prejudice bias opinion in the originating same subject matter civil action case Tn 2:16cv-00273.

JURISDICTION STATEMENT
28 U.S. Code Part IV - Jurisdiction and Venue
Chapter 83 - Court of Appeals (§§ 1291 to 1296)
Chapter 85 - District Courts ; Jurisdiction (§§ 1330 to 1369)
Chapter 87 - District Courts ; Venue (§§ 1390 to 1413)
Chapter 171 - Tort Claims Procedure ( §§ 2671 to 2680 )
28 U.S. Code 2674. Liability of United States
28 U.S. Code 1346. United States as defendant

(1) Pursuant to 28 USC Part IV, Jurisdiction and Venue. This Tn Eastern District Court is
proper jurisdiction to adjudicate this civil action, predicated, inter alia, upon 28 USC §1331 and
1343, which places original jurisdiction in the eastern Tn. federal district court for civil actions
commenced by any person to redress the deprivation of such rights, also invoking the court's
supplemental jurisdiction pursuant to 28 USC §1367.
(2) The originating incident of this complaint occurred on June 24,2012, in the Tn Eastern
District. On June 24,2013 a FTCA 28 USC 2675, SF-95 administration claim was filed. An
amended SF-95 tort claim was file on Feb 07,2014. An updated SF-95 with evident discovery
from two (2) adjoining cases was submitted to USFS General Council (OGC) on Aug 18,2015.
(3 ) USFS OGC denied any efficient settlement communication inregards to the admin, claim,
along with fully denying the SF-95 relief on March 17, 2016. The Bivens FTCA 28 USC 1346,
FRCP 13(g) cross-claim civil action was filed on Aug 22, 2016, in the Tn eastern district federal
court. This civil action filing, being five (5) months after OGC denial. Civil action summonses
where issued by Greeneville, Tn eastern district court on Nov 11,2016. see.fTn 2:16-CV-273)

10

( 4 ) All filings where correct and timely, pursuant to Tn Code Ann §28-3-104(a)(I), 105(1),
being one (1) year for injury and three (3) years for property damage relief, pursuant to FRCP
Rule 13(g), amending a SF-95 administration claim of same occurrence tort subject matter. All
pursuant to Tn. Code Ann. § 28-1-114, being a proper co-party cross-claim complaint and Tn
Code Ann §§ 29-20-201 thru 206 being proper waivers of government employees qualified
immunity. Therefore Jurisdiction and Venue is proper in the Tn. Eastern District Federal Court,
6th Circuit Court of Appeals and United States Supreme Court of this jurisdiction venue.
( 5 ) A FRCP Rule 12(b)(l)(5)(6), Motion to Dismiss (Tn 2:16-cv-273, doc 23-24), for failure
to state a claim for relief, was filed as defendants answer to the original complaint by US eastern
district Atty Anderson, on June 23,2017. The grounds of defendants dismissal motion where
jurisdiction, untimeliness, facial and factual merit matters. Judge Greer on March 19,2018, filed
an order, granting defendants motion to dismiss. see..f Tn 2:16-cv-273, doc 32, order)
( 6 ) Plaintiff filed appeal with the 6th circuit on May 29, 2018. ( 6th cir # 18-5558, doc 1)
( 7 ) On Jan. 03, 2019, the 6th circuit of appeals, filed an order to : "Vacate the district court's
judgement and Remand the action so that the district court may correct its judgement to indicate
that the individual defendants are dismissed without prejudice to the extent they where sued in
their individual capacities." see...(Tn 2:16-cv-273, Doc 41 : 6th cir, order)
( 8 ) On Feb. 26, 2019, the 6th circuit of appeals filed a Mandate. ( Tn 2:16-cv-273, Doc 42)
( 9 ) On Feb 28, 2019, the Tn district court complied with Mandate. (Tn 2:16-cv-273, Doc 43)
( 10 ) On April 01, 2019, Plaintiff files de novo civil action. ( Tn 2:19-cv-00049, Doc 2)
( 11 ) OnJune 12,2020, Corker bad faith prejudice dismissal. (Tn 2:19-cv-00049, Doc9,10)
(12) On June 17,2020, Plaintiff files Notice of Appeal.

(Tn 2:19-cv-00049, Doc 11)

( 13 ) On June 22, 2020,6th Circuit of Appeals assigns case. ( 6th Cir. 20-5666, Doc 1)
( 14 ) On June 29, 2020, Appellant files for Forma Pauperis.

11

(6th Cir. 20-5666, Doc 4)

(15 ) On Feb. 02,2021, Murphy denies Forma Pauperis Motion. ( 6th Cir. 20-5666, Doc 7)
( 16 ) On Feb. 24,2021, Appellant: Motion for Reconsideration. ( 6th Cir. 20-5666, Doc 10)
(17) On Feb. 24,2021, Corker Disqualification Motion. ( Tn 2:19-cv-00049, Doc 14)
(18) On Feb 26,2021, Corker Judicial Complaint.

(6th Cir. #06-21-90007)

(19) On April 21,2021, Motion for Reconsideration Denied.

( 6th Cir. 20-5666, Doc 12 )

(20) On May 03,2021, Larsen Disqualification Motion. (6th Cir. 20-5666, doc 14)
( 21) On May 03,2021, Larsen Judicial Complaint.

(6th Cir. ChiefExecutive Office )

(22) On June 08,2021, Murphy : Want of Prosecution Dismissal. (6th Cir. 20-5666, Doc 17)
(23 ) On Aug. 08,2021, Corker: Want of Prosecution Dismissal. ( Tn 2:19-cv-00049, Doc 20)
(24) Venue is proper in the Eastern District of Tennessee pursuant to 28 U.S.C. § 1391(b),
because all violations, claims and subpoena’s occurred within this Eastern Tennessee District.
(25 ) This is an action for compensatory monetary relief, to redress the deprivation by
defendants, of the rights secured to plaintiff, under the US Constitution and the State of Tn.
(26) At all times mentioned in this complaint, defendant's were acting under the color of law,
that is, under color of the constitution, statutes, laws, rules regulations, customs, and usages of
the United States and the State of Tennessee and therefore deprived the Plaintiff of rights secured
to him by the Constitution of the United States, including, but not limited to :
(a) First (1st) Amendment Right of peaceful assembly.
(b) Fourth ( 4th ) Amendment Right of privacy, to be free from unlawful searches and seizure.
(c) Fifth (5th) Amendments Rights of life, liberty, property and just compensation.
(d) Sixth (6th) Amendments Rights of due process of law.
(e) Eighth ( 8th) Amendments Rights of no excessive cruel punishment and fines.
(f) Tenth (10th ) Amendments Rights of state law sovereignty.
(g) Fourteenth (14th) Amendment Rights of equal protection of the laws.
12

(21) The Courts retain their traditional responsibility to guard against police conduct, which is
overbearing, harassing or intrusive to one's privacy or which trenches upon personal security,
without the objective suspicious evidentiary justification which the Constitution requires.
(28) At all times mentioned in this complaint, the defendants, separately and in concert
conspiracy with each other, engaged in acts and omissions that constituted deprivations of the
rights, privileges, and immunities of the plaintiff, and while these acts were carried out under
color of law, they had no justification or excuse in law, and were illegal, improper, and unrelated
to any activity in which the defendants and law enforcement officers may appropriately and
legally engage in the course of protecting persons and property or ensuring civil order.

CONSTITUTIONAL and STATUTORY PROVISIONS
(29) This civil rights tort cause of action, addresses negligent duty and training. Pursuant to
*Bivens 403 USC 388 ( "For every wrong there is a remedy" ) ; *Westfall 484 USC 292
("Proper conduct, duty and discretion shields immunity") ; *RICO 18 USC §1961 §1964 §
1962 ... section 1028 (relating to fraud and related activity in connection with documents )...
section 1503 ( relating to obstruction ofjustice ).. section 1510 ( relating to obstruction of
criminal investigations) ... section 1511 ( relating to the obstruction of state law enforcement)
and ;... section 2332b(g)(5)(B) ( Government coercion intimidation terrorism ) ;
( 30 ) All of the above stated actions are addressed as a; *FTCA 28 USC §2674, §1346 ; and
*FRCP 13(g) coparty cross-claim civil action condoning monetary sanctions, general and special
exemplary deter and reform compensatory relief against US Forest Service (USFS) and twelve
(12) defendants named within, for committing acts that deprived the plaintiff of rights secured to
him under the United States of America Constitution, statutory laws, rules and regulations that
govern government employees. The United States Forest Service and the twelve (12) agents
13

i
i

named within acted negligent within their individual and official capacity, pursuant to Bivens
403 USC§ 388 ; Westfall 484 USC § 292 ; RICO 18 USC § 1962 and Tn State Substantive
Liability Tort Laws, pursuant to FTCA 28 USC § 2674, § 1346, USA employees liability.
(31) Whereby the US Forest Service (USFS) agents acted reckless and unqualified, on behalf
of the United States and where negligent of duty and training, in not carrying out proper qualified
US CFR Title 5 code of duty regulation standards for a; traffic stop ; dog sniff; search ;
seizure ; drug testing ; court testimony, FOIA subpoena and code of duty violations reform.
Whom all defendants named within this civil action complaint, under the color of federal and
state law acted deceitful and conspiring of excessive negligence, within this malicious assault,
faulty bogus arrest and abuse of power prosecution of plaintiff and further named USFS agents
became extremely egocentric negligent of reforming these extreme code of duty violations.
(32 ) These state and federal violated statutory regulations are and not limited to Federal Law
Enforcement Training ( FLETC ) ; Drug Law Enforcement Training ( DLETP ) : Criminal
Investigation Training (ICITP ) ; Crime Scene Investigators Training ( CSICP ) ; Investigative
Analysis for Law Enforcement (IALE); Recoveiy of Evidence from Video Recording
( RECVR ) ; Internal Affairs Investigations Training (IAITP ) and US CFR Title 5 code of duty
regulations ; DOJ NU 0604.01 standards ; FOIA 5 USC 522 standard ; CVB citation regulations ;
Tn and Federal statutory laws, rules, regulations and sacred constitutional amendment rights.
(33 ) This civil action condones monetary sanctions, general and special exemplary deter and
reform compensatory relief against the US Forest Service (USFS) and twelve (12) defendants
named within, for committing acts that deprived the plaintiff of rights secured to him under the
United States, of America Constitution, federal and state statutory laws. Pursuant to official and
individual capacities of Bivens 403 US 388 ; Westfall 484 USC § 292 ; RICO 18 USC §1962 ;
FTCA 28 USC § 2674, § 1346 and Tn State Substantive Liability Tort Laws. The US Forest
Service, acting within its official capacity, is responsible for the training and actions of all of
their employees, and authorize and support their actions under color of federal law, pursuant to
official policy, customs and practice of the US Forest Service. The negligent duty and training
14

actions named within, condone general and special compensatory treble reform relief, in regards
to the assorted malicious unreasonable code of duty behavior violations.
( 34 ) Bivens 403 US 388 ; Westfall 484 US 292 ; RICO 18 USC § 1962 individual and official
capacity civil rights violations named within, address the 1st, 4th, 5th, 6th, 8th, 10th, and 14th
United States of America constitutional amendment rights of: Peaceful Assembly; Privacy ;
Life, Liberty, Property : Just Compensation; Duty and Due Process of Law; No Excessive
Cruel Punishment: State Law Sovereignty ; and Equal Protection.. all in regards to proper
training and code of duty for legitimate jurisprudence procedures of a: traffic citation; dog
sniff; search; seizure; drug field testing; court oath testimony : FOIA subpoenas and :
reform.of violations.
(35) The twelve (12) agents named in the complaint have "NO” qualified immunity, by all case
factual evidence and facial evident authority, of Tn Code Ann § 29-20-201 thru § 206 statutory
waivers of qualified immunity and federal statutory regulations, as and not limited to ; CFR US
Title 5 code of duty for USFS employees ; DOJ NIJ 0604.01 standards for drug test kits ; CVB
traffic citation standards ; FOIA 5 USC 522 contempt sanctions, of denied subpoenas of an
incriminating incident video of this jurisdictions venue; and government management as Internal
Affairs (IA), and Office of General Counsel (OGC's), duty to reform stated violations.
(36) The tort claims arising from the USFS agents actions named within this complaint, where
"NOT" personal discretionary actions. The negligent tort claims of this complaints action for
relief, address rules, regulations, standards and codes of conduct that the USFS vowed to protect
and secure within their code of duty and our sacred "Constitutional Amendment" rights. These
regulations are and not limited to : CFR Title 5 code of duty ; DOJ NIJ 0604.01 standards ;
FOIA 5 USC 522 standards ; CVB citation regulations ; Tn and Federal statutory laws, rules and
regulations protecting and securing our sacred "United States Constitutional Amendment" rights
of assembly, privacy, property, just compensation, due process and excessive negligence.

15

(37) The direct causation actions of defendants where done in reckless negligence of training
and duty and all named defendants are an "enterprise" party of US Forest Service, whom
proscription career benefits from common goal conspiracy causation coercion arrests and
prosecutions. As proven evident, of plaintiffs "NO" reasonable suspicion of friendly peaceful
civilized behavior, being preyed upon by this malicious, overaggressive, demising law
enforcement agencies intrusive violations of plaintiffs' sacred "Constitution Amendment" rights,
with further obstructions ofjustice. All in regards to coercion terrorist intimidation violations of
militant capitalism government employees. The twelve (12) defendant's malice and negligent
actions condone a "bad faith in law" enterprise conspiracy of: *RICO 18 USC § 1962 : § 1964
(1970) : "Government enterprise causation coercion terrorist obstructions ofjustice". Defendants
proven evident reckless behavior qualifies for general and special treble exemplary deter and
reform compensatory relief, along with Rule 37, FOIA subpoena contempt cost sanctions, as 28
USC § 2412. All stated contempt sanctions and monetary compensatory relief, being in the best
regards to the petitioners' diligent "Good Faith in Law", in reforming this extreme negligent
excessive egocentric party, of militant capitalism overseer government employee coercion
intimidating terrorist causation obstruction ofjustice racketeering nuisance. Deep state corrupt
capitalist government employed political organized crime enforcement cover-ups, best describe
all defendants actions named within this complaint to remedy public safety and personal well
being with petitioner tribute homage relief.
Thefollowingfactual merits must be evident to remedy a violation ofRICO Section 1962(a):
1 Existence of an enterprise...
*USFS corrupt Deep State government employed organized crime political will enforcers.
2. The enterprise engaged activities affected interstate commerce ...
*USFS with no suspicion or Marshal law authority prey upon Rainbow Gathering attendants.
3. Derived income from a pattern ofracketeering activity...
*USFSproscription career benefitsfrom common goal conspiracy causation coercion arrests.
4. Investment in the promotion ofthe racketeering enterprise ...
*USFS militant capitalism overseer government employees' investment of causation
coercion intimidating enforcement terrorist obstructions ofjustice racketeering.
16

i

\

**Federal and State Authority Reference Cases :
*Aguilar v. Texas, 378 US 108 (1964) : "Creditable reliable probable cause information"
*Anderson v. Creighton, 483 US 635 (1987) : "False testimony is ’Not'reasonable"
*Ashcroft v. Iqbal 556 US 662 (2009) : "Case cannot be dismissed on conclusory merits"
*Bivens v. Six Agents, 403 US 388 (1971) : "For every wrong, there is a remedy"
*Harlow v. Fitzgerald, 457 US §800 (1982) : "No" immunityfor negligent code ofduty"
*Hartman v. Moore 547 US 250 (2006) : "Mens rea, Actus rea causation probable cause”
*Horne v. USDA, 569 US 513 (2013) : "Government pays just compensation for wrong doing"
*Johnson v. USA 333 US 10 (1948) : "Impartial detached magistrate, judges probable cause"
*Kalina v. Fletcher 522 US 118 (1997) : "Qualified duty, to do something successful"
*Kowak v. USFS, 9th Circuit, No. 12-35864 (2014) : "USFSOGCFOIA withheld evidence"
*Leev. Philadelphia, tort, 05-cv-6661 (2005) : "Awarded $180,000, for bogus drug tests"
*Malley v. Briggs 475 US 355 (1986) : "Incompetent have 'NO' qualified immunity"
*RICO 18 USC §1962 §1964 (1970) : "Government enterprise coercion obstruction ofjustice"
*Spinelliv. United States 393 US §410 : "Proper probable cause circumstances relied on"
*Westfall v Erwin 484 US 292 (1988) : "Proper conduct, duty and discretion shields immunity"

PETITION STATEMENT of EVIDENT MERITS
(38) The originating civil action case : Tn 2:16-cv-00273, doc 33, was dismissed with
prejudice. Judge Corker, grants plaintiff "good faith" forma pauperis, to proceed in 6th circuit
appeal 18-5558. The 6th circuit 18-5558 appeal remands "without prejudice" order : Tn 2:16cv-273, doc 43. Plaintiff, then files same subject matter de novo civil action: Tn 2:19-cv-00049,
doc 2. and Judge Corker, after fourteen (14) months, dismisses this complaint "with bad faith
prejudice", pursuant to a forma pauperis recommendation from newly assigned rookie magistrate
Wyrick. This remanded de novo evident legitimate facial and factual merit matter civil action:
Tn 2:19-cv-00049, is dismissed, by Corker prior to defendants being US Marshal served
complaint and FRCP properly answering complaint.
17

(39) Plaintiff, then files : Tn 2:19-cv-00049, doc 11, Notice of Appeal, being the same 6th
circuit appeal 20-5666, of this Supreme Court Petition for Writ of Certiorari. Newly assigned
Judge Murphy in 6th circuit appeal 20-5666, doc 7, denies petitioners' "Good Faith" motion to
proceed in forma pauperis, pursuant to Judge Corker and Magistrate Wyricks recommendation.
Judge Corker is Canon Code 3(C)(1)(e) disqualified to address Tn 2:19-cv-00049. Assigned
Magistrate Corker had already confirmed a dismiss with prejudice opinion in Tn 2:16-cv-00273,
being the same subject matter of 6th circuit 18-5558 appeal order remanding this de novo Tn
2:19-cv-00049 civil action for remedy relief.

BRIEF HISTORY
(40) On June 24,2012, Petitioner was on vacation, attending a gathering of pray and peace for
the 4th of July, in the Tn National Forest. USFS Harris orders petitioner to pull over, for no
known reason. An over aggressive street gang type swat team of six (6) USFS officers, in three
(3) USFS vehicles immediately surrounded plaintiffs' vehicle, without any suspicion or due cause
for this extreme excessive invasive action. USFS Rizkalleh was wearing a body cam and filmed
the incident. Officers Smith and Rizkalleh then coach a k9 dog sniff where to alert. The coached
k9 sniff is done by USFS Johnson, who alleges an alert at the very spot coached by Smith and
Rizkalleh, direct alert was also not filmed, being out of view of her body cam. A malicious
damaging ransacking search of plaintiffs' vehicle was done by Rizkalleh, Valles, Johnson and
Smith, whereby approximately seventy five (75) common items of plaintiffs' camping supplies
where NIK drug field tested, by Rizkalleh and Valles. Plaintiff petitioner identifies to USFS, that
all items tested are legal and common camping supplies.
see..(Tn. & 6th cir. 18-5558 *ex. A7: DVD incident video)
(41) USFS Rizkalleh and Valles, both used proven expired bogus NIK drug test kits, in
violation of DOJ NU 0604.01 standards of expiration. They also carried out proven undisputed
improper prescribed testing procedures by NIK proper prescribed instructions. USFS question
their own testing results and ten (10) common items alleged to be illegal drugs, by the bogus
18

tests, where seized and a Sullivan County sheriff deputy was called in. The deputy is a traffic
officer, with no NIK drug testing experience, therefore USFS instruct and supply him with their
bogus outdated NIK drug tests, to retest their questionable bogus results. USFS falsely
incriminate plaintiff, stating to the deputy that plaintiff had confessed that common ginger root
was peyote. The incident video clearly verifies that plaintiff did not claim ginger root was peyote.
Plaintiff identified all tested items where legal and common camping supplies, as example
being : chocolate smoothie, ginger root, com meal, vitamins and bug repellent.
see...( Tn 2:13-cv-l 74; NIK drug test kits)

(42) USFS Johnson and Harris give further false oath court testimony, in regards to the
detainment, dog sniff and NIK drug field testing. This false oath testimony is proven undisputed
with evident incident video and audio of the Tn probable cause hearing. At the time of incident in
the sovereign state of Tn, the state statute of probable cause to abide by was the "AquilarSpinelli" probable cause test.
(43 ) The originating Bristol, Tn : criminal case # BOO 1081, probable cause hearing, on July 10,
2012, can "NOT” pass the two (2) aspects of the "Aquilar-Spinelli" probable cause test, as
clearly evident, see... (Tn 2:16-cv-00273 : Doc 25, pgs 366-370)
see...(DVD: 6th cir. 18-5558 *ex. A7, 14a-c)
*The Two (2) "Aquilar-Spinelli" Aspects of Judgement determining a Probable Cause :
(1) The magistrate must be informed, with reliable and credible information.
(2) The magistrate must be informed of underlying circumstances relied on.
(44 ) USFS Dir. Ferrel and FOIA Marchak are demanded and subpoenaed three (3) times, in
regards to the incident video. As named parties in this complaint, they denied plaintiff the USFS
incriminating incident video, in comtempt of federal court proceedings, in an attempt to cover-up
the corurpt code of duty violations of unfit improper procedures of rules, regulations, standards
and statutory laws. USFS OGC legal department director; Atty. Karen Carrington has a history
of withholding and denying rightious FOIA evidence. USFS OGC Dir. Atty Karin Carrington, is
a direct co-party of plaintiffs’ denied SF-95 claim on March 17,2016. OGC Carrington refused

19

all communication with plaintiff, in regards to an efficient settlement agreement with remedy for
dangerous code of duty violations. see...( Tn 2:16-cv-273 : Doc 9, *exAl-A3 )
see...(Kowak v. USFS, 9th Circuit, No. 12-35864)
see...(Tn 2:16-cv-273 ; SF-95 *exAl-A3 : TnDoc 9, pgs 154-170 )
see... ( USFS OGC *exA8: Tn 2:16-cv-273 ; Doc 25,pgs. 373-383)
see...( Signed Amended SF-95 *exAll-A12 : Tn 2:16-cv-273 : Doc 37, pgs. 471-479)
(45 ) USFS IA Boehm and OGC Dir. Karen Carrington, where named within this de novo
complaint; Both did not address or reform these extreme malice bogus violations of duty and
training, to remedy all parties concerns of personal well being and public safety. These being
undisputed evident violations of: FLETC CFR US Title 5 code of duty and training ; DOJ NIJ
0604.01 standards for drug test kits ; CVB traffic citation regulations ; FOIA 5 USC 522
subpoena contempt; whereby all the undisputed evident violations named within the complaint,
where reviewed by Boehm and Carrington in there entirety, and they being in full knowledge of
the dangerous violations, they did ’’Not” remedy them for public safety and personal well being.
(46 ) This is evident of plaintiffs' communication with USFS IA Boehm on Dec. 05,2012 ; as
documented in plaintiffs' USDA Inspector General complaint; PS-0801-0632 ; on Oct 31,2012
and Dec 05,2012.: and Plaintiffs' attempt and denied communication with USFS OGC Dir.
Karen Carrington, in regards to an efficient SF-95 amended administration claim settlement
agreement see../Tn 2:19-cv-00049; Doc 2; USDA complaint *exA13pg 81-93)
see...(Tn 2:16-cv-00273 : Doc 25 : OGC communication *ex. A8)
*The Evident Undisputed Factual Merit Matters are :
(a) USFS restrainedplaintiffs freedom ofpeaceful assembly, withoutjust cause for this action.
(b) USFS gave false oath testimony, in regards to the evidentfacts ofthe prosecutions case.
(c) USFS gave false incrimination, in regards to ginger root being Peyote. (Peyote Charge )
(d) USFS used 11 year expired NIK drug test kits, with 5 yr warranty ofuse. (Meth Charges )
(e) USFS carry out wrong procedures, ofNIK THC drugfield testing. ( THC charge )
(f) USFS does not address "fraud detainment", that isfurther dismissed within non procedure.
(g) USFS give false oath testimony about traffic citation, dog sniffand NIK drug testing.
(h) USFS denied "FOIA demand and subpoena orders" of USFS evident incriminating video.
20

(i) USFS LEO, LA and OGC management do "NOT" reform these code ofduty violations.
(@) All the stated Evident Undisputed Factual Merit Matters being;
(a) Evident ofthe USFS June 24, 2012, incident video.
(b) Evident ofJuly 10, 2012, Bristol, Tn court oath testimony, at the probable cause hearing.
(c) Evident ofthe Central Violation Bureau (CVB), proper traffic citation proceedings.
(d) Evident ofdemand and (3) subpoena's denied of USFS incriminating incident video.
(e) Evident of "denied" communication and OGC SF-95 remedyfor code ofduty violations
* This extreme invasive dangerous bogus causation arrest by, US Federal Title 1 standards is
worthy oflife in prison and millions ofdollars infines, see.. ( Tn 2:16-cv-273, Doc 9, *ex A5)

REASONS for GRANTING WRIT of CERTIORARI

( 47 ) Pursuant to FRCP Forma Pauperis 28 U.S.C. § 1915(e)(2), complaint is "NOT" frivolous.
The 6th cir. has confirmed forma pauperis "Good Faith" proceedings, in originating, Tn 2:16cv-00273 of 6th cir appeal 18-5558, remanding this same subject matter de novo complaint, Tn
2:19-cv-00049 of 6th cir appeal 20-5666 of undisputed evident merit matters. Judge Corker,
Wyrick and Murphy conclusory and without any evident merit in claiming this civil action is
frivolous, is stating the 6th Circuit and Supreme Court is party to their conclusory nonsense.
Petitioner clearly states assorted legitimate claims of evident facial and factual merits, in regards
to each defendant, whereby relief can be granted. The SF-95 claims of personal well being and
property damage are alone suitable for relief to be granted.
see...( Tn 2:16-cv-273 doc 9, pgs. 154-164 : Amended FTCA 28 USC, SF-95 claim )
see....( Tn 2:16-cv-00273 doc 9, pgs 165-169 : Amended FTCA 28 USC, SF-95 updates )

21

(48) It is undisputed that petitioner fully qualifies for forma pauperis to proceed. The
originating ( 6th cir appeal 18-5558 of Tn 2:J6-cv-00273) remanded "Good Faith" order
affirms this same subject matter denova civil action is "NOT" frivolous. (Tn. 2:19~cv~00049).
As one can clearly reference the Table of Authorities II and Table of Exhibits III evident facial
and factual merit matters listed above, that are further stated as evident case file merits of this
petition good cause for action, see.../6th cir 18-5558 doc 9, Motion for Relief).
(49) To call this remanded de novo case frivolous as Wyrick, Corker and Murphy have done is
insane and without any proven merit is frivolous. Defendants as judges named above have not
presented any legitimate facial or factual merit matters to justify, such an extreme illegitimate
action of dismissal. This civil action of prominent stated reputable evident merit matters is to be
addressed in a legitimate court of law. Such actions of Wyrick, Corker and Murphy condone a
rouge court system without rules and regulations, misinterpreting and making up the law as they
go along, within their frivolous nonsense attempts to conclusory dismiss without any reputable
good cause facial and factual merits.
(50 ) As stated in Appellant Brief: (6th cir 20-5666 doc 6, Brief) :
The district court was bias and incorrect in conclusory addressing merits ofthe complaint, prior
to the defendants proper answer. Judge Corker is disqualified by canon code 3, and is bias,
reiterating his past assigned magistrate errors of ( Tn 2;16-cv-00273 ), whereby it is known by
all parties that defendants cannot dismiss this de novo Tn 2:19-cv-00049 on conclusoryfacial
andfactual merits. *Ashcroft v. Iqbal, 556 U.S. 662 (2009) .. Pleadings must be non-conclusory,
factual, andplausible to survive a motion to dismiss based on inadequate complaintfacts.

This Supreme Court Writ Petition corrects lower court errors, with stated applied laws :
*Judge Disqualification Order : Pursuant to Judiciary Judge Canon Code 3 (C)(1)(e).
*FRCP 4 (b)(c)(3) issuance summons : pursuant to Title 28 USC@1915(a)(d) process.
*Factual andproximate causation actus rea, mens rea probable cause duty ofcare law.
*Tn sovereign law two(2) aspects "Aquilar-Spinelli"probable cause determination.
*FTCA 28 USC@2675, FRCP 13(g) amended updated SF-95 same occurrence admin, claim.
22

*As stated by plaintiff in : "Notice ofAppeal": Tn 2:19-cv-00049 doc 11; pgs 192-196
*Tn Code Ann@28-3-104(a)(l), 105(1) SF-95 FRCP 13(g) action commenced tort claims.
*Tn Code Ann@28-l-114 (a)(b)(c) FTCA 28 USC 2675, FRCP 13(g) tort cross claims.
*Tn Code Ann@29-20-201 thru 206, waivers ofgovernment employees qualified immunity.
*28 USC@2412 : FRCP 26(a) and Rule 37, FOIA failure to disclose cost, fees, sanctions.
*6th Circuit Judge Disqualification Order: Pursuant to Judiciary Judge Canon Code 3 (C)(1)(e)
@ Judge Corker and Larsen have expressed a bias opinion in Tn 2:16-cv-00273. This case being
ofthe same subject matter controversy of 6th Cir Appeal 18-5558. This 6th Circuit Appeal, being
the same mandated order of (Tn 2:16-cv-00273 doc 43 ), ofthis remanded de novo that
disqualified Corker hasfurther bias ordered to dismiss with "badfaith prejudice".
see...(Tn 2:19-cv-00049 doc 9,10)
(51) This "Good Cause", petition for "Writ of Certiorari", addresses proven extreme
violations of government employed very dangerous code of duty rules and regulation violations.
It is in the secured best interest of the United States to "Grant this Petition", of proven merit
matters, pursuant to public safety and personal well being remedy.

CONCLUSION STATEMENT
(52) Judge Murphy and Corkers frivolous dismiss with bad faith prejudice order, pursuant of
Magistrate Wyricks recommendation, does "Not" addressing petitioners' true cause of action
merit matters, that clearly address very dangerous rogue law enforcement code of duty and
regulatory statute violations . The judges eluding "bad faith with prejudice" order is id insane
chaos, of out of control government guidance regulations. This indulgent self righteous overseer
judicial system condones justifying rogue police enforcement violations, which represents a very
dangerous threat to our society and personal well being.

23

(53 ) Murphy, Corker and Wyricks’ frivolous dismiss order seeks to justify and condone a very
dangerous out of control rogue law enforcement of political capitalist insurgency. Both far right
and left negative affirmation ideologies, seek to control others behavior with competitive
conflicting contentions of questionable results. Petitioner is moderate of civil intellectual father
knows best government, political and civilian experience, in regards to proper representation of
our stated laws, regulations and sacred constitutional amendment rights of self control freedom.
(54) Petitioners' civil action addresses rogue government organized crime racketeering
violations of rules, regulations, standards and codes of conduct that the USFS vowed to protect
and secure within their code of duty and our sacred constitutional amendment rights.
see...(Tn 2:19-cv-00049, doc 2, complaint)
(55) Pursuant to Forma Pauperis 28 U.S.C. § 1915(e)(2), this de novo civil action of verified
documented undisputed evident facial and factual merit matters is "Not" frivolous. The 6th
circuit confirmed forma pauperis good faith proceedings in remanding this same good faith
subject matter de novo complaint. Petitioner clearly states assorted claims whereby relief should
be granted. see...( 6th cir. 18-5558, doc 11, remand order)
(56) Wyrick, Corker and Murphy do not address each party named within this civil action with
separate individual defined violations of duty, law and sacred amendment rights. As example in
regards to RICO claims, Judge Canon Code 3 (C)(1)(e) ) disqualified Corker in his second
misleading dismissal attempt, (Tn 2:19-cv-00049 doc. 9) further errors in disregard, by stating
the RICO claims hold no merit, as there is "no pattern of racketeering activity".
Defendants Named in Complaint with Nature of Claim:
see...( Tn 2:19-cv-00049: Doc.2 ; pg id # 32-60)
(57) As example, petitioner has clearly stated in RICO claims against USFS k9 Johnson, that
he had a pattern of 4th amendment right violations in regards to illegitimate stops alleging drugs,
whereby no drugs where found. A racketeering preying swat team, including Johnson surrounded
plaintiff,with no suspicion or valid due cause for such an extreme dangerous action.
24

(58) Further this racketeering government swat team coaches k9 Johnson where to alert. Then
after a very damaging costly demising personal property malicious search. They then use proven
faulty drug test kits and USFS Johnson and Harris further lie by giving false oath testimony at the
probable cause hearing. The proven false oath testimony is in regards to the fraud stop, coached
dog sniff, invalid drug tests, along with false witness to testing.

(59) This same named within USFS racketeering group sought to further falsely incriminate
appellant by claiming he confessed to peyote charges. All parties named in this complaint, by
their malicious actions sought to end plaintiffs life, with government racketeering charges,
worthy of life in prison and millions of dollars in fines. All these stated evident factual merit
matters are proven documented evidence by the incident video and court oath USFS testimony at
the probable cause hearing. To claim this civil action is frivolous without merit, is corrupt
dangerous insanity of self destructive government of uncivilized un-moralistic behavior.
see...(Johnson claim : Tn 2:19-cv-00049; Doc.2 : pg id # 51-53)
(60) USFS directors Carrington, Marchak, Ferrell and Boehm named in complaint, have a
pattern of racketeering activity, in regards to corrupt coverups of duty violations and contempt
violations of court case evidence of very dangerous incident violations. All noted RICO
racketeering violations are clearly stated in the defendants nature of claim. see...( Tn 2:19cv-049: Doc.2 : Carrington, Boehm pg 57-60 : Ferrell pg 40-41: Marchakpg 42-43 ) ;
see...(Tn 2:19-cv-00049 doc 2 : pgs id # 32-60)
(61) One common factor of Wyrick, Corker and Murphy's frivolous attempt to dismiss, is in
regards to the Tn statute of probable cause of the arrest. Whereby they seek to fraud the court
with a senseless doctrine of res judicata final judgement claim. Therefore they confuse the court
with nonsense and deny it the legitimate facial and factual evident merit matters of appellants
true cause of action complaint.

25

(62) Plaintiff stated in: "Response to Wyrick Recommendation": ( Tn 2:19-cv-00049, doc. 7)
On June 29, 2015, Sullivan vs Anderson; Tn 2:13-cv-l 73; Judgement (Doc 51) states;
This action came before the Honorable J. Ronnie Greer, District Judge, presiding, and the issues
having been duly addressed and a decision having been duly rendered, It is ORDERED AND
ADJUDGED that the plaintiffs federal claims against the defendants are DISMISSED WITH
PREJUDICE, and the plaintiffs state law claims against the defendants are DISMISSED
WITHOUT PREJUDICE.

( a ) On July 09,2015, Plaintiff filed : "Proposed Pretrial Order" (Doc 52), filing its content
in preparation to address issues of: ( Tn 2:I3-cv-l 73 ) case files, with the 6th circuit of appeals.

(b ) On July 27, 2015 : Plaintiffv. Sullivan Countyfiled: (Tn 2:13-cv-173, Doc 53, Stipulation
ofDismissal with Prejudice), in favor ofplaintiff: Comes the Plaintiff, Michael C. Sullivan,
representing himselfwithout counsel, and Defendants Wayne Anderson, Jeremiah Lane, Jeff
Dotson, Steve Godsey, and Sullivan Co Wlty, by and through counsel Daniel Street, pursuant to
and in accordance with Rule 41 (a) ofthe Federal Rules ofCivil Procedure, and announce to the
Court that all matters in controversy in this cause ofaction have been fully compromised and
settled by and through agreement ofthe parties and that this matter should be DISMISSED
WITH PREJUDICE.
(c) Therefore Wyrick's conclusory statements alleging the probable cause was a court final
judgement, is "FALSE", as "Without Prejudice", and "Stipulation Agreement" is "NOT" a final
judgement of the court, and therefore cannot even satisfy the senseless claim of a doctrine of res
judicata, as a final judgement, of this undisputed evident "Causation Probable Cause", civil
action. Tn sovereign law is the proper legitimate statutory probable cause determination of this
civil action. Tn statutory law presides over a probable cause determination. Tn 2; 13-cv-l 73, doc
53, was dismissed by a stipulation agreement of the parties on July 27,2015. In favor of plaintiff.

26

(d) The plaintiffs detainment, dog sniff, search, seizure, arrest and prosecution occurred within
the boundaries of the State of Tennessee, therefore the probable cause determination at the time
of the 2012 arrest and prosecution was addressed with the two (2) aspects of "Aquilar-Spinelli" ;

The Two (2) Aspects ofLaw Enforcement or Magistrate determining a Probable Cause:
(1) The magistrate must be informed, with reliable and credible information.
(2) The magistrate must be informed ofunderlying circumstances relied on.
(e) The originating Bristol, Tn: case# BOO 1081, probable cause hearing, on July 10,2012, can
"NOT" pass the two (2) aspects of the "Aquilar-Spinelli" probable cause test. This being the
same Blountville, Tn: case# S61188, bogus fraud malicious felony criminal charges bound over
before the Sullivan County Tn, Grand Jury on Dec. 14, 2012, being all, a "No True Bill"
nuisance of "USFS Factual Causation" : being the evident cause of the "Faulty Probable
Cause", that is.being addressed as "Causation Probable Cause", in this de novo complaint.
see.( Hartman v. Moore 547 U.S. 250 ( 2006) : 'Mens rea, Actus rea causation probable cause")

(f) USFS defense as Magistrate Wyrick seeks to blame SCSO Lane for the faulty probable
cause, as he was fully dependent on USFS probable cause being honorable. The undisputed
evident facts of the case files, as the USFS incident video, court oath audio testimony and evident
probable cause documents of the adjoining cases, prove undisputed Lane was not the cause of the
faulty probable cause. Evident documents further prove undisputed that USFS causation actions
where the cause. This complaint addresses : "Causation Faulty Probable Cause to Remedy"
**Causation Law is the relationship of cause and effect ofan act or omission and damages
alleged in a tort or personal injury action. A plaintiffin a tort action shouldprove a duty to do
or not do an action and a breach ofthat duty.... Causation means the causing or producing of
an event. *In American law, causation has two parts : factual causation and legal causation.
Cause-in-fact, beingfactual causation istested by saying "Butfor the defendant's bad actions, the
harm would not have occurred."

27

(g) "Totality of Circumstances" applies if there is "Bad" probable cause, yet a crime is
discovered for the court to address. In plaintiffs' case it is undisputed evident of the grand jury
"No True Bill" dismissal proving "Bad Faulty" probable cause for this civil action to address to
remedy. As in petitioners' criminal prosecution case, "Totality of Circumstances" does "NOT"
apply, as undisputed evident facial and factual merit matters prove there was "No Crime" and
"Bad Faulty Causation Probable Cause"
(h) In Lane’s case, it is undisputed evident, he did "Not" directly address the "Bad Faulty"
stop, sniff, search, and was given "Bad Faulty Outdated" USFS drug field tests. Lane did
"Not" give false oath court testimony, nor did he coach a "Bad Faulty" dog sniff. Lane is not
held liable, as he did not break the plaintiffs guitar and do further damage to his personal
property and well being. The USFS is proven undisputed liable with incident video evident of
damages to petitioners' property and well being.
(i) Therefore undisputed evident merits prove USFS was at "Fault" for the "Causation Bad
Faulty" probable cause, for this now court to address for personal well being relief and public
safety remedy. As example, we look at the dog sniff, as Florida v. Harris, 568 U.S. 237 (2013),
Harris was the first Supreme Court case to challenge the dog's reliability, backed by data that
asserts that on average, up to 80% of a dog's alerts are wrong, In plaintiffs case, undisputed
evident merit matters, as the incident video and court oath testimony prove the k9 was coached
and the k9 handler gave false oath testimony in regards to the k9 sniff and the drug field tests.
Further the k9 handler has a history aggressive "Bad Faulty" sniffs.
see...(Tn 2;19-cv-00049, doc 2;pgs 36-38)
(63 ) This all is undisputed evident of the June 24,2012 USFS incident video and July 10,2012.
Bristol Tn court testimony. FS Johnson further gave false oath testimony, that he was called in
for his K9 sniff. The USFS incident video clearly shows, Johnson was not waved in for a dog
sniff, as in the FS incident video, the dog sniff vehicle with drug testing vehicle directly behind
it, just drove into the incident site, surrounding the Plaintiffs vehicle, as a regular rogue invading
routine, without any reasonable suspicion or just cause for this extreme threatening action.
28

(64) At the Rainbow Gathering from June 9,2012 to the June 24,2012 incident date.
Referenced to USFS Johnson's k9 records : there where approximate fourteen (14) alleged stops,
all of which where alleged seat belt stops, with thirteen (13) vehicle alleged dog sniff alerts, and
there was a search of the vehicles and 'No Controlled Substances' where found in the vehicles.

( 65 ) In Plaintiffs case like a regular very dangerous rogue routine of USFS law enforcement,
it was another fraud alleged seat belt stop, with a FS Johnson coached k9 alleged alert, a
damaging search, seizure and malicious arrest with again, No Controlled Substance' in the
vehicle, as reference to Dec 14, 2012, "No True Bill" dismissal, being 6 mths from bogus
incident. This was a malicious demising costly felony jail time miscarriage ofjustice.

(66) Further in regards to our political appointed judicial system, being misleading frauds in
justifying these very dangerous code of duty, rules and regulation violations of rogue threatening
government employee self indulgent racketeering criminal behavior. Assigned Corker and Larsen
are party to the expressed opinion in Tn 2:16-cv-00273 of 6th circuit appeal 18-5558. This 6th
circuit appeal, being the same remand order of Tn 2:16-cv-00273, doc 43, of this same subject
matter de novo Tn 2:19-cv-049 of the 6th circuit appeal 20-5666 that Canon Code 3(C)(1)(e)
disqualified Corker and Larsen have ordered to dismiss with "bad faith prejudice".
see..(Tn 2:19-cv-049, doc 9,10)
(67) District Judges Greer, Corker, Wyrick, and 6th Circuit Appeal Judges Murphy, Kethledge,
Donald, Guy, Stranch, Larsen, all qualify now for judicial disqualification : Pursuant to Judiciary
Judge Canon Code 3 (C)(1)(e). All named above have expressed a judicial opinion of case.
( 68 ) 6th Circuit Judge Murphy and Judge Larsen did "NOT" address appellant 6th circuit
appeal 20-5666 doc 14, "Judicial Disqualification of Larsen". Nor did Murphy address district
Judge Corkers canon code 3(C)(1)(e) disqualification in 6th circuit 20-5666 doc 6, appeal.

29

(69) District Judge Corker did "NOT" address plaintiffs’ "Motion of Substitution", in
Tn 2:19-cv-00049, doc 11,14,, in regards to Corker being disqualified to address case.
( 70 ) A Judicial Complaint # 06-21-90007 was filed on Feb. 26, 2021 with 6th Circuit Chief
Judge Jeffrey Sutton, in regards to District Judge Corker being Canon Code 3(C)(1)(e)
disqualified in addressing his reiterating dismiss with bad faith prejudice order in Tn 2:19cv-00049, doc 9, of 6th circuit appeal 20-5666. Corker had already stated his dismiss with
prejudice opinion as assigned magistrate party to same subject matter case of Tn 2:16-cv-00273,
doc 33, of 6th circuit appeal 18-5558, doc.l 1, being the remand without prejudice order of
de novo Tn 2:19-cv-0049.
( 71) A Judicial Complaint was filed on May 03,2021 with 6th circuit Chief Judge Sutton, in
regards to 6th circuit Judge Larsen being canon code 3(C)(1)(e) disqualified in addressing 6th
circuit appeal 20-5666, doc 12. Judge Larsen had already expressed her opinion in 6th cir. appeal
18-5558 doc 11, remand without prejudice order of de novo Tn 2:19-cv-0049.
(72) In accordance with Rule 8(b) of the Rules of Judicial Misconduct and Rule 3(a)(2) of rules
governing complaints of Judicial Misconduct, a copy of complaint was filed with 6th Circuit
Executive Office and 6th Circuit Chief Judge Jeffrey Suttons’ office, phone : (513) 564-7200
* Judicial Canon Code 3 : A Judge Should Perform the Duties ofthe Office Fairly, Impartially
and Diligently. : (C) Disqualification(1) A judge shall disqualify himselfor herselfin a
proceeding in which the judge’s impartiality might reasonably be questioned, including but not
limited to instances in which: (e) Thejudge has served in governmental employment and in
that capacity "participated as a judge in a previous judicial position, counsel, advisor, or
material witness concerning the proceeding or has expressed an opinion concerning the
merits of the particular case in controversy " : *Pursuant to Title 28 U.S. C. § 455, which
provides the standards forjudicial disqualification or recusal, whereby Section 455, captioned :
"Disqualification ofjustice, judge, or magistrate judge ", provides that a federaljudge "shall
30

disqualify himself in anyproceeding in which his impartiality might reasonably be questioned".
The section also provides that ajudge is disqualified" where he has personal "bias or prejudice
concerning a party", or personal knowledge ofdisputed evidentiaryfacts concerning
proceeding"; when the judge has previously served as a lawyer or witness concerning the same
case or has "expressedan opinion concerning its outcome" and28 U.S.C. § 47provides that.
"No judge shall hear or determine an appealfrom the decision ofa case or issue tried by him."
(73 ) Judge Corker and Murphy pursuant to Wyricks conclusory frivolous recommendation
errors in the determination of federal and state facial and factual evident merit matters precedent
to this Supreme Court Petition for Writ of Certiorari, is addressed in :
see...( 6th cicuit 20-5666, doc 10, Petition for Panel Rehearing)
( 74 ) Proper FRCP 4, issuance certified service is the remand "Without Prejudice" order of the
6th circuit appeal # 18-5558, doc 11, of district courts mandated order : Tn2:16-cv-00273, doc
43. This all being the same subject matter of this de novo : Tn 2:19-cv-00049, of this appeal
20-5666, in regards to judicial canon code 3 disqualified Corker's dismissal with "bad faith
prejudice", therefore not allowing plaintiff to proceed with forma pauperis US Marshal Service
issuance process, pursuant to 28 USC @1915 (a)(d), addressing the defendants proper response
answer to complaint, prior to legitimate facial and factual merit matters being judiciary addressed
properly by FRCP standards.
( 75 ) It is the firm opinion of petitioner that valid FRCP 4, certified issuance summons service
was served properly to all defendants named in: Tn 2:16-cv-00273, pursuant to FRCP 4(c)(e)(i)
(l)(m). As evident of "Proof of Service" of the "USPS Priority Certified 1st Class Mail".
Certified service was carried out by USPS, along with authorized government agency employees,
who verified the "Certified Signed and Dated" service, as further the Department of Justice
DOJ verified and assigned full representation to the Tn Eastern District US Attorneys Office,
see..."Proof of Service" : ( Tn 2:16-cv-00273, doc 19, pgs 239-275 ) see...( Tn 2:16-cv-00273,
doc 26, pgs 407-408 ) see...( Tn 2:16-cv-00273, doc 34, pgs 454-456 )

31

*As stated in 6th circuit appeal remand "Without Prejudice" order: A18-5558, doc 11-2:
Review ofthe record demonstrates that Sullivan sent a summons and complaint by
priority mail to the "USAttorney Generals Office ” in Washington, D.C., that the Postal Service
delivered the mail, and that someone signedfor the mail. What the record does not explicitly
demonstrate is that Sullivan sent the documents by registered or certified mail, and he cites no
authority indicating that his documents prove that he has done so. Sullivan argues that he
properly served the individual defendants in their individual capacities by priority mail, which
he contends is the same as registered, certified mail, relying on an alleged quotation from the
Postal Service that certified mail is available for priority mail as well asfirst-class mail. While
"strict enforcement ofRule 4's technical requirements for service ofprocess ” may be
"nonsensical” and lead to wastedjudicial resources, we mustfollow the Rule and may not
consider whether an error was harmless. King v. Taylor, 694 F.3d 650, 656 n.l (6th Cir. 2012).
Consequently, a defendant’s "full awareness that he had been sued makes no legal difference to
the question whether he was properly served. ” Id. at 655-56. Thus, the district court did not
abuse its discretion by concluding that Sullivan failed to effect service properly against the
individual defendants in their individual capacities. See Fed. R. Civ. P. 12(b)(5); Nafziger, 467
F.3d at 521 .. However, because Sullivan did not properly serve the individual defendants in
their individual capacities, the district court lackedjurisdiction to consider the merits ofthe
claims against them and should have dismissed the defendants without prejudice. See Fed. R.
Civ. P. 4(m); King, 694 F.3d at 655. Accordingly, we may not consider whether the Bivens
claims were barred by the statute oflimitations, whether the individual defendants were entitled
to qualified immunity, and whether claims relating to the search and seizure were barred by the
doctrine ofcollateral estoppel.
* As stated in 6th circuit remand "Without Prejudice": A18-5558, doc 11-2 Accordingly, we
VA CA TE the district court’s judgment in part and REMAND the action so that the district court
may correct itsjudgment to indicate that the individual defendants are dismissed WITHOUT
PREJUDICE to the extent that they were sued in their individual capacities.

32

* As stated in 6th circuit "Analysis" on page 3 of: A18-5558, doc 11-2, remand order: "We
also observe that we may affirm a district court’s dismissalfor reasons other than those stated
by the district court. Hamdi ex rel. Hamdi v. Napolitano, 620 F.3d 615,620 (6th Cir. 2010).
(76) The 6th circuit remand order only affirms the district in regards to Greer's : ("Meet and
Confer" : Tn 2:16-cv-273, doc 5 ; order violation ) of: ( 6th cir 18-5558, doc 6, pgS 32-33 ;
appellant complaint). And that Marchak's "FOIA Contempt", claim does not authorize an action
for damages and Sullivan sought only monetary relief. Petitioner addresses Marchak "FOIA
Contempt" as "Sanctions" and "Cost" in this remanded de novo : Tn 2:19-cv-00049, doc 2.

*FOIA Obstruction ofJustice Contempt Sanctions and Cost:
see...FRCP Rule 37. Failure to Make Disclosures or to Cooperate in Discovery; Sanctions
see...28 U.S. Code §2412. Costs andfees : see..( Tn 2:19-cv-00049, doc 11; Notice ofAppeal)
see.../ Tn 2:19-cv-00049: doc7, doc 8; Response to Magistrate)

(77) The 6th Circuit has confirmed plaintiff petitioners forma pauperis proceedings, in 6th
Circuit Appeal A18-5558, doc 11, in regards to the district courts remand order : Tn 2:16cv-00273, doc 43, of the same subject matter controversy of this de novo : Tn 2:19-cv-00049, doc
2 : complaint. The district court Wyrick recommendation further affirms forma pauperis
proceedings in : Tn 2:19-cv-00049, doc 6. Therefore as stated above in (1) to (77) ; Petitioner has
clearly proven "Good Faith" evident facial and factual merits to proceed in forma pauperis with
qualified US Marshal summons service upon : FRCP 4(b)(c)(3) : Supreme Court Remand
Order ofSummons Issuance: Pursuant to 28 USC @1915(a)(d) process to proceed in "Good
Faith " withoutfee. Whereby judgement, whether it be district, circuit or supreme court can
properly address the valid facial and factual merit matters of this civil action, after all the named
defendants have been served by the US Marshals issuance service and properly answer the
complaint in good faith of legitimate federal civil proceedings.
see....( Tn 2:19-cv-00049: doc 8, pg 3 : US Marshal Summons Service )
see....( Tn 2:19-cv-00049 doc2 : Complaint)

33

" The right ofthe people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures shall not be violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, andparticularly describing the place to be
searched, and the persons or things to be seized "
" What is a nation worth, ifits residents ofgood behavior cannot prosper happiness "

*Chief Justice John Roberts affirmed in the OGC case of "Home v. USDA", that the Fifth (5th )
Amendment requires the government and its agencies to pay just compensation for wrong doings.
* Included above is Petitioner Forma Pauperis Application : pgs. 1-6
* Included below is : Index Appendices : Appendix A to D : pgs. 36-76

Truly Sincere,

Michael C Sullivan
Angel Hill Farm
146 Rosedale Rd.
Stumptown, WV 25267
Phone: (304) 354-7529

** Pursuant to Certification of Supreme Court Rule 33.2(b) page compliance **
Petitioner Brief is fully in compliance with the 40 page limit of a Petition for Writ of Certiorari.

34

